PROOF OF SERVICE
I, Parvin Heshmati, do hereby solemnly declare that on July 15th, 2020, I did cause to be delivered by
mail a true and correct copy of the foregoing instruments ("PETITION FOR WRIT OF CERTIORARI
plus exhibits and. MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS + letter of Clerk of
Court of Records date July 1, 2020 + Petitioner's reply letter to Clerk of Court of Records") including
true and correct copies of all/any documents referenced therein as "attached hereto", to the parties and
locations listed below except the one indentified by the Petitioner, Petitioner served those:

Parvin Heshmati
12309 Saratoga Creek Dr., City of Saratoga, Rancho Quito, California Republic
Tel: 408 873 8732
TO:
Delivery via U.S.P.S. First Class Mail Certified and Registered Delivery Article Number
7017 0530 0000 8511 4017
Supreme Court of the United States
Attention: Clerk of Court of Records
1 First Street, NE
Washington, DC 20543
[1 original]
Severson & Werson
Joseph W. Guzzetta and or Bernard J. Kornberg and or Jan T. Chilton
One Embarcadero Center, Suite 2600
San Francisco, CA 94111
[By Petitioner, through true filing, just the SCOTUS letter and Petitioner's reply letter]
California Supreme Court
350 McAllister St., Suite 1295
San Francisco, CA 94102
[By Petitioner, through true filing, just the SCOTUS letter and Petitioner's reply letter]
All others through true filing

